No. 20-1029

 

 

IN THE
Supreme Court of the Anited States

CITY OF AUSTIN, TEXAS,
Petitioner,
Vv.
REAGAN NATIONAL ADVERTISING OF TEXAS,
INCORPORATED, et al.,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Fifth Circuit

BRIEF IN OPPOSITION TO
PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
6,590 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on May 12, 2021.

 

Colin Casey Ugan
Wilson-Epes Printing Co., Inc.
